V.

Jj-

NOf

1

rra

>

SUPREME COURT OF THE JUITED STATES

DONALD MACK,
PETITIONER,
V.

AUG 3 0 2021
fupREEMEFcn!fpTL,^.K

ASHLEY MOODY,
ATTORNEY GENERAL, STATE OF FLORIDA
RESPONDENT.

EXTRAORDINARY WRIT OF HABEAS CORPUS

Donald J. Mack #047682
Columbia Correctional Inst.
216 SE Corrections Way
Lake City Florida 32025
pro se

1

QUESTION PRESENTED

The Due Process Clause of the Fourteenth Amendment prohibits states from trying or
convicting a defendant who is mentally incompetent. See Pate v. Robinson, 383 U.S. 375 (1966).
Under the Fourteenth Amendment to the United States Constitution can a man who has been convicted
when he is incompetent challenge his conviction notwithstanding procedural rules in the State and
Federal Courts?
LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES
In Re: Doncal J. Mack, 2021-11237-H Eleventh Circuit Court of Appeals April 27, 2021
Donald J. Mack v. Julie Jones, 2018 U.S. Lexis 16582 (S.D. Fla. 2018)
Donald J. Mack, 2021 Fla. App. Lexis 3574 (Fla. Dist. App. May 20, 2021)
Donald J. Mack, 562009-CF-002014A, Circuit Court Nineteenth Judicial Circuit, Saint Lucie County
Florida. May 26, 2020.

2

TABLE OF CONTENTS
OPINIONS BELOW

5

JURISDICTION

6

CONSTITUTIONAL AND STATUTORY PRIVISIONS

6

STATEMENT OF CASE

7

REASONS FOR GRANTING THE WRIT

11

CONCLUSION

16

INDEX TO APPENDICES
Opinion of Circuit Court

APPENDIX A

3

TABLE OF CITATIONS
Alexander—State,-29T-So3d978 (Fla. App. 3rd Dist. 2019)

17, 10

Corbin v. State, 129 Fla. 421, 176 So. 435 (Fla. 1937)

16

Daugherty v. State, 149 So3d 672 (Fla. 2014)

17

Drope v. Missouri, 420 U.S. 162, 172 (1975)

14

Dusky v. United States, 362 U.S. 402,402 (1960)

13

Erickson v. State, 965 So. 2d 294 (Fla. 5th DCA2007)

16

Holland v. State, 634 So. 2d 813, 815 (Fla. 1st DCA1994)

16

Jackson v. State, 880 So. 2d 1241, 1242 (Fla. 1st DCA2004)

16

Mack v. State of Florida, 2016 WL 4065596 (Fla. App 4th Dist. 2016)

8

Mack v. State of Florida, 134 So.3d 471, (Fla. 4 DCA2014)

6

Molina v. State, 946 So. 2d 1103 (Fla. 5th DCA2006)

16

Pate v Robinson, 383 U.S. 375 (1966)

2,13,17

OTHER CITATIONS
28 U.S.C. §1254(1)

7

Article XIV 1 Untied States Constitution.

7

893.13(l)(a) Fla. Stat. (2009)

5

Fla. R. Crim. P. 3.610

8

Fla. R. Crim. P. 3.850

11

4

SUPREME COURT OF THE JUITED STATES

EXTRAORDINARY WRIT OF HABEAS CORPUS

OPINIONS BELOW
Federal Court: Mack v. Jones, 2018 U.S. Dist. Lexis 16582 (S.D. Fla. Fla. Jan. 08, 2018)
The opinion on the United States Court of Appeals appears at Appendix A to this Petition.
That opinion is not published
State Court
The opinion of the highest State Court to review the merits appear at
Mack v. State of Florida, 2021 Fla. App. Lexis 3574 (Fla. App. 4th Dist. 2021)
Mack v. State of Florida, 2016 WL 4065596 (Fla. App 4th Dist. 2016)
Mack v. State of Florida, 134 So.3d 471 (Fla. 4 DCA2014).

5

JURISDICTION
-The-United-States -Court of Appeals decided my case April 27, 2021. There was no motion for
rehearing was filed, and none is authorized. The Jurisdiction of the Court is invoked under 28 U.S.C.
§1254(1)

CONSTITUTIONAL AND STATUTORILY PROVISIONS INVOLVED
“Nor shall any State deprive any person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal protections of the laws”. Article XIV 1 United
States Constitution

6

STATEMENT OF CASE AND FACTS

On May 19, 2011, Petitioner was charged in an amended information along with two other CoConspirators, with RICO-conducting an Enterprise through a Pattern of Racketeering Activity, a first
degree felony in violation of §893.13(l)(a) Fla. Stat., and two counts of sale and delivery of controlled
substances.
Petitioner asserted his right to a trial by jury which commenced May 31, 2011 and ended June 3,
2011 after a jury convicted Petitioner on all alleged counts filed against him in the information.
June 13, 2011 Defense Counsel filed a motion to arrest judgment pursuant to Fla. R. Crim. P.
3.610, based on claims that Petitioner was adjudicated incompetent by the Circuit Court in Broward
County, Florida arising out from charges brought six years earlier, and never restored to competancy.
Defense Counsel argued Petitioner's incompetency negated the conviction, he should not have
been tried, therefore sentencing should be stayed, and based on his incompetency, the verdict should be
arrested, set aside, nullified, vacated, and/or a mistrial declared. Similarly, in a motion to find Petitioner
incompetent to proceed to trial, Defense Counsel set forth that the adjudication of incompetency
occurred just six months prior to the underlying trial and that Defense Counsel was not aware of the
incompetency until after the underlying trial was complete. A post-trial hearing was scheduled for
November 15,2011.
At the hearing, the Court denied the motion to arrest judgment stating there were no supporting
grounds under Rule 3.610. (Post-Trial Tr. At 7). In addressing Petitioner's claim that he was
incompetent at the underlying trial based on a prior adjudication of incompetency, the Court found that
(1) based on Florida law it had no independent obligation to hold a competency hearing if there was
nothing to alert the Court that he lacked competency nor was it obligated to accept expert testimony or
the determination of incompetency of another court, (2) there was nothing in the court file to say

7

Petitioner was incompetent to proceed nor were there indicators of incompetency during trial and (3)
-Petitioner's-responses-during the Court's colloquy at trial demonstrated that he fully understood his
rights and freely and voluntarily exercised his right to not testify.
The Court also found that the facts supporting Petitioner's conviction in the instant case was
inconsistent with someone who is incompetent or mentally disabled. Petitioner's incompetency was not
apparent to Defense Counsel after more than two years of representation, the State Attorney's office, or
the trial court, no one came forward with information about incompetency until after a guilty verdict
was rendered, and the psychological reports used to support the determination of incompetency were
unreliable because there was no medical evidence to support any diagnosis. (Id. at 143-155).
The post-trial hearing included determining the Competency of Petitioner to proceed to
sentencing, not trial. The State presented its expert witness, a clinical and forensic psychologist1 who
testified he personally assessed Petitioner and reviewed his prior psychological evaluations. (Post-Trial
Tr.at 75-132). The psychologist testified that he could not conclude whether Petitioner "was or was not
malingering," as that would require further analysis. (Id. at 115,124). The psychologist testified that
Petitioner was incompetent to proceed to sentencing. (Id. at 118). He did not render an opinion as to
whether Petitioner was competent to proceed at any time other than the time of his evaluation. (Id. at
125).
The Court took judicial notice of the psychological reports and determined there was no
evidence to support a diagnosis of mental illness or cognitive disorders. However, based on the
1. Dr. Gregory Landrum examined Petitioner for approximately "90 minutes to 2 hours" on June 27,
2011, and reviewed three prior psychological evaluations of Petitioner: an evaluation by Dr. Dennis
Day completed November 10, 2010; an evaluation by Dr. Trudy Block-Garfield completed on May 27,
2009; and an unsigned letter from Broward Regional Health Planning Counsel written on December
21, 2005. (Post-Trial Tr. 76-79). Dr. Landrum's report at p. 1510-1516; Dr. Day's report at p. 15171520; Dr. Braunstein's report for Henderson Mental Health Center at p. 1521-1522; Dr. BlockGarfield's report at p. 1523-1525; and Broward Regional Health Planning Council's letter at p. 15271529.

8

testimony of the psychologist, the Court found Petitioner temporarily incompetent to proceed to
sentencing'and ordered a full evaluation in a competency restoration program in a state forensic facility
that would receive all of the relevant facts and evidence to assist in its evaluation. (Post-Trial Tr. at
147-162). On May 18, 2012, the Court held a hearing to accept the report from Treasure Coast Forensic
Treatment Center, which stated Petitioner was now competent to proceed to sentencing . (Id. 169-170).
At the sentencing hearing on May 24, 2012, Defense Counsel renewed the competency
objections and objected to the psychological report but the court overruled the objections based on the
same reasoning it articulated during the post-trial hearing held on November 15, 2011. (Id. at 176-196).
Accordingly, the Court sentenced Petitioner to thirty (30) years imprisonment with credit for time
served for Count 1; for Count 2, a period of fifteen (15) years drug offender probation to run
consecutive with Count 1; for Count 3, a period of fifteen (15) years drug offender probation to run
concurrent with Count 2; and, for Count 4, a period of fifteen (15) years drug offender probation to run
concurrent with Count 3. (Id. at 225). Petitioner filed a timely appeal.
In his appellate brief, Petitioner presented two claims:(l) ineffective assistance of counsel
resulting from counsel's failure to discover his adjudication of incompetence from Broward County and
(2) trial error in not granting Petitioner's motion for acquittal for the State's failure to prove association
with a criminal enterprise to support the RICO conviction. On February 20, 2014, the appellate court
per curiam affirmed Petitioner's conviction. (See Mack v. State ofFlorida, 134 So.3d 471, (Fla. 4 DCA
2014). On July 3, 2014, Petitioner filed his motion for post-conviction relief pursuant to Fla. R. Crim.
P. 3.850. (R-40-75) As grounds for relief he asserted eight claims of ineffective assistance of counsel
and the ninth claim asserted that the cumulative effect of counsel errors entitled Petitioner to a new
trial. Id. On September 3, 2015, the Circuit Court entered an order dismissing without prejudice as to
the insufficient claim presented as Claim One in the 3.850 motion.
Petitioner filed a Supplemental Rule 3.850 motion and attached the psychological reports
9

referenced in the post-trial hearings. On March 7, 2016, the court denied all claims in Petitioner's Rule
-3.-850-motion-and-Supplemental Rule 3.850 motion as procedurally barfed, refuted by the record, and
without merit. (R-76-84) Petitioner appealed the denial of his 3.850 of motion and filed an initial brief
claiming (1) the trial court erred in denying Claim One as procedurally barred and refuted by the record
and (2) that the trial court erred in denying Claim Two without attaching a portion of the record that
conclusively showed he was not entitled to relief. On July 28, 2016, the Fourth District Court of Appeal
per curiam affirmed the denial of Petitioner's 3.850 motion. Mack v. State, 2016 WL 4065596 (Fla. 4th
DCA2016). The mandate was issued on August 26, .2016.
Petitioner filed a Petition for Writ of Habeas Corpus in the Southern District of Florida
challenging his conviction, which was denied. See, Mack v. Jones, 2018 U.S. Dist. LEXIS 3813 (S.D.
Fla., Jan. 8, 2018).
Petitioner filed a Petition for Writ of Habeas Corpus arguing that he was tried while
incompetent and his conviction should be vacated, that was denied May 26, 2020. The order was
affirmed by the Fourth District Court of Appeals. Mack v. State, 4D20Petitioner then sought leave to file a second or successive petition for writ of habeas corpus
pursuant to §2254 in the Eleventh Circuit Court of Appeals which was denied April 27, 2021.
Petitioner filed in this Court a Petition for Writ of Habeas seeking review of the denial of his
application to file a second or successive habeas corpus that was returned August 2, 2021 citing that
there was no leave to proceed in forma pauperis, no notarized affidavit of declaration of indigency and
that the petition did not follow the form prescribed by Rule 14 as required by Rule 20.2. The Clerk also
noted that: “Petitioner does not show how the writ will be in aid of the Court's appellate jurisdiction,
what exceptional circumstances warrant the exercise of the court's discretionary powers, and why
adequate relief cannot be obtained in any other form or from any other court. The petition does not
state the reasons for not making application to the district court of the district in which you are held”.
10

Petitioner cannot file a Petition for Certiorari in this Court to review the denial of an application
-to-file-a-seeond-or-successive petition for writ of habeas corpus pursuant to Title 28 U.S.C. §2254.
Habeas Corpus is the only application that can be filed to seek review.
No other pleadings or petitions have been filed in this cause, the Petition follows:
REASONS FOR GRANTING THE WRIT
The Due Process Clause of the Fourteenth Amendment prohibits states from trying or
convicting a defendant who is mentally incompetent. See Pate v. Robinson, 383 U.S. 375 (1966). The
Supreme Court set the standard to be used in determining mental competency as to whether a defendant
"has sufficient present ability to consult with his lawyer with a reasonable degree of rational
understanding-and whether he has a rational as well as factual understanding of the proceedings against
him." Dusky v. United States, 362 U.S. 402, 402(1960) (per curiam); Drope v. Missouri, 420 U.S. 162,
171 (1975); see also Indiana v. Edwards, 554 U.S. 164 (2008).
A petitioner who makes a substantive competency claim, contending that he was tried and
convicted while mentally incompetent, is entitled to a presumption of incompetency. James v.
Singletary, 957 F.2d 1562, 1571 (11th Cir. 1992).
To prevail on a procedural competency claim, a petitioner must establish that the state trial
judge ignored facts raising a 'bona fide doubt' regarding the petitioner's competency to stand trial. Id. at
1572 n.15 (citing Fallada v. Dugger, 819 F.2d 1564, 1568 (11th Cir. 1987), 819 F.2d at 1568). A
petitioner who presents clear and convincing evidence which creates a real, substantial and legitimate
doubt as to his competence is entitled to an evidentiary hearing on his substantive competency claim.
For any defendant, the consequences of an erroneous determination of competence is dire,
because if he lacks the ability to communicate effectively with counsel, he is unable to exercise other
rights deemed essential to a fair trial. Riggins v Nevada, 504 US, 127, 139 (1992). After making the
profound choice not to plead guilty, Godinez v Moran, 509 US 389, 398 (1993), the defendant proceeds
11

to trial having to decide whether to waive his privilege against compulsory self-incrimination, Boykin v
- - Alabama-,395TJS-23-8i-243(T969), by taking the witness stand; in consultation with counsel, he has to
decide whether to waive his right to confront [his] accusers, ibid., by declining to cross-examine
witnesses for the prosecution." Ibid.
The question in this case is whether a State may leave undisturbed a criminal conviction once
the defendant demonstrated, post trial, that he was incompetent during trial.
At a post-trial hearing in this case, to address questions concerning Petitioner's competency Dr.
Landrum, a Court appointed expert, clinical and forensic psychologist2 testified he personally assessed
Petitioner and reviewed Petitioner's prior psychological evaluations. (Post-Trial Tr. at 75-132). The
psychologist testified that Petitioner was incompetent. {Id. at 118). He did not render an opinion as to
whether Petitioner was competent to proceed at any other time. {Id. at 125).
The Court took judicial notice of the psychological reports and determined Petitioner was
competent for trial, based on the conduct the State presented to convict him. In the same breath, the
Court determined Petitioner was incompetent to proceed to sentencing and ordered a full evaluation in
a competency restoration program at a state forensic facility that would receive all of the relevant facts
and evidence to assist in its evaluation. (Post-Trial Tr. at 147-162).
This ruling rejected multiple Mental Health Experts who opined that Petitioner was incompetent
for trial, and sentencing. The expert findings supported the ruling that Petitioner was incompetent
before trial and nothing intervened to indicate he had been restored to competency before trial.
Petitioner's competency was an impediment to his ability to have a fair trial, where he was
2. Dr. Gregory Landrum examined Petitioner for approximately "90 minutes to 2 hours" on June 27, 2011, and
reviewed three prior psychological evaluations of Petitioner: an evaluation by Dr. Dennis Day completed November
10, 2010; an evaluation by Dr. Trudy Block-Garfield completed on May 27, 2009; and an unsigned letter from
Broward Regional Health Planning Counsel written on December 21, 2005. (Post-Trial Tr. 76-79). Dr. Landrum's
report at p. 1510-1516; Dr. Day's report at p. 1517-1520; Dr. Braunstein's report for Henderson Mental Health Center
at p. 1521-1522; Dr. Block-Garfield's report at p. 1523-1525; and Broward Regional Health Planning Council's letter at
p. 1527-1529.

12

unable to meaningfully communicate with counsel as a normal defendant would. Petitioner's
-ineompeteney~prevented“him from telling counsel he had been declared incompetent in Broward
County on December 22, 2010, six months before trial, and that he was never restored to competency.
An individual who has been adjudicated incompetent is presumed to remain incompetent until
adjudicated competent to proceed by a Court. Jackson v. State, 880 So. 2d 1241, 1242 (Fla. 1st DCA
2004) (citing Holland v. State, 634 So. 2d 813, 815 (Fla. 1st DCA 1994)); see also Corbin v. State, 129
Fla. 421, 176 So. 435 (Fla. 1937); Erickson v. State, 965 So. 2d 294 (Fla. 5th DCA 2007); and Molina
v. State, 946 So. 2d 1103 (Fla. 5th DCA 2006).
In this case, the Petitioner was never restored to competency before trial, and the Circuit Court
had no authority to reject the Broward County Judges findings/orders of incompetency by relying on
the Petitioners criminal conduct to find he was competent post trial.
The State Court could have made a nunc pro time determination of Petitioner's competency
based on competent substantial evidence, from qualified medical professional's available close in time
to the determination, but could not rely on the Petitioner’s criminal conduct, as the Court in this case
did. See Daugherty v. State, 149 So3d 672 (Fla. 2014); Pate v Robinson, 383 U.S. 375 (1966) (which
held that due process is violated if the trial court fails to afford an adequate hearing to a defendant on
the issue of his competency to stand trial).
The Court's expert that examined the Petitioner after trial concurred with the Broward County
experts, testifying that Petitioner was not competent.
The error in this case is that on December 22, 2010, six months before trial, Petitioner was
declared incompetent. No one examined Petitioner for competency before the instant trial, and he was
tried while incompetent. This was error. See e.g. Alexander. State, 291 So3d 978 (Fla. App. 3rd Dist.
2019) ([T]he fact that the trial court believed Mr. Alexander "presents very lucid in court" cannot be
characterized as a finding of competency because a determination of competency is based on numerous
13

relevant factors, not only whether a defendant presents as "very lucid in court.").
The -evidence-introduced on-Petitioner's -behalf-entitles him-to_ review 'of this issue, where'the
State Court's failure to honor the evidence of incompetency deprived Petitioner of his constitutional
right to a fair trial. See Thomas v Cunningham, 313 F.2d 934(CA 4th Cir 1963). The State court's
failure to follow the procedures mandated by the Constitution amounted to an unreasonable application
of clearly established law as determined by the Supreme Court. Petitioner made a substantial showing
of incompetency, which entitles him to, among other things, an adequate means by which the expert
psychiatric evidence is evaluated, in response to the evidence solicited by the State. And it is clear from
the record that the State Court reached its competency determination without providing Petitioner with
due process, notwithstanding sustained effort, diligence, and compliance with Court rules.
Once a prisoner seeking habeas corpus based on competency, has made a substantial threshold
showing of incompetency, the protection afforded by procedural due process includes a fair hearing in
accord with fundamental fairness. Ford v. Wainwright, All U.S. 399, 424 (1986).
This protection means a prisoner must be accorded an opportunity to be heard, id., at 424,
through a constitutionally acceptable procedure that affords process to the Prisoner, id., at 427. As an
example of how the state procedures were deficient, the determination of competency appeared to have
been made solely on the basis of the examinations performed by examining the Court files, and the
evidence produced to convict Petitioner. Such a procedure invited arbitrariness and error by rejecting
contrary medical evidence which sustained an arbitrary result.
The precise limits that due process imposes in this area, includes an opportunity to submit
evidence and argument from the prisoner's counsel, including expert psychiatric evidence that would
refute the State's evidence.
Petitioner was entitled to these protections once he made a substantial threshold showing of
incompetency. Id., at 426. He made this showing when he filed Motion To Determine Competency after
14

trial, confirmed by the trial court's appointment of mental health experts pursuant to Fla. R. Crim. P.
3-.2-14-(a)(2),-Dougher-ty~v> State, 149 So. 3d 672, 676 (Fla 2014) and verified by independent review of
the record. The Motion included observations made by a Court appointed expert after Petitioner's trial
and it, references the extensive evidence of mental dysfunction considered in earlier legal proceedings.
In light of this showing, the Sate Court failed to provide Petitioner with the minimum process required.
Id.
Under AEDPA, a federal court may grant habeas relief, as relevant, only if the state court's
"adjudication of [a] claim on the merits . . . resulted in a decision that . . . involved an unreasonable
application" of the relevant law. When a state court's adjudication of a claim is dependent on an
antecedent unreasonable application of federal law, the requirement set forth in 2254(d)(1) is satisfied.
A federal court must then resolve the claim without the deference AEDPA otherwise requires.
See Wiggins v. Smith, 539 U.S. 510, 534 (2003) (performing the analysis required under Strickland's
second prong without deferring to the state court's decision because the state court's resolution of
Strickland's first prong involved an unreasonable application of law); id., at 527-529 (confirming that
the state court's ultimate decision to reject the prisoner's ineffective-assistance-of-counsel claim was
based on the first prong and not the second). See also Williams, supra, at 395-397; Early v. Packer, 537
U.S. 3, 8 (2002) (indicating that 2254 does not preclude relief if either "the reasoning [or] the result of
the state-court decision contradicts [our cases]"). Here, due to the state court's unreasonable application
of Ford, the fact finding procedures upon which the Court relied were not adequate for reaching
reasonably correct results or, at a minimum, resulted in a process that appeared to be seriously
inadequate for the ascertainment of the truth. 477 U.S. at 423-424.
Petitioner seeks a Petition for writ of habeas corpus to review the State Court's determination of
competency for trial nun pro tunc.

15

CONCLUSION
-Petitioner has .shown that he was. tried while incompetent, and the order on review must be
reversed to allow a nunc pro tunc determination of competency for trial after considering medical and
non-medical information relevant to such a determination. Alexander.
Wherefore the Petitioner moves this Honorable Court to grant the Writ, issue an order directing
the District Court to review the merits of this issue and make a merits determination and any other
orders this Court deems necessary and just.
%

Thisj?$ day of August, 2021

Donald J. Mac]
Columbia Correctional Inst.
216 SE Corrections Way
Lake City Florida 32025

16

